HHS/OIG-Audit--"Review of Pharmacy Acquisition Costs for Drugs Reimbursed
Under the Medicaid Prescription Drug Program of the Florida Agency for Health Care
Administration, (A-06-95-00065)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under
the Medicaid Prescription Drug Program for the Florida Agency for Health Care
Administration," (A-06-95-00065)
August 13, 1996
Complete
Text of Report is available in PDF format (263 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, part of a nationwide audit of pharmacy drug acquisition costs requested
by the Health Care Financing Administration, was made to develop an estimate of
the difference between the actual acquisition costs of drugs of the dispensing
pharmacy and the average wholesale price (AWP) used by States in helping establish
drug reimbursement amounts. Most States reimburse pharmacies for Medicaid prescriptions
using a formula which generally discounts the AWP by 10.5 percent. This review
was made in 11 States. This final report discloses results in Florida. In Florida
the overall estimate of the extent that AWP exceeded pharmacy purchase invoice
prices was 20.2 percent for brand names drugs and 41.5 percent for generic drugs.
We believe that the differences between AWP and pharmacy acquisition costs as determined
by our review are significant enough to warrant consideration by the State in any
evaluation of the drug program. Therefore, we recommended that the State agency
consider the results of our review in determining any future changes to pharmacy
reimbursement for Medicaid drugs in Florida.